<html>
<title> - PROPOSED FISCAL YEAR 2007 BUDGET REQUEST FOR THE NATIONAL PARK SERVICE</title>
<body><pre>[Senate Hearing 109-422]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-422
 
 PROPOSED FISCAL YEAR 2007 BUDGET REQUEST FOR THE NATIONAL PARK SERVICE

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   TO

 REVIEW THE PRESIDENT'S PROPOSED BUDGET FOR THE NATIONAL PARK SERVICE 
                          FOR FISCAL YEAR 2007

                               __________

                             MARCH 14, 2006


                       Printed for the use of the
               Committee on Energy and Natural Resources










                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

28-080                 WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001










               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               KEN SALAZAR, Colorado
GORDON SMITH, Oregon                 ROBERT MENENDEZ, New Jersey
JIM BUNNING, Kentucky

                     Bruce M. Evans, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
               LAMAR ALEXANDER, Tennessee, Vice Chairman

GEORGE ALLEN, Virginia               DANIEL K. AKAKA, Hawaii
RICHARD M. BURR, North Carolina      RON WYDEN, Oregon
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
                                     ROBERT MENENDEZ, New Jersey

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel






















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Craig, Hon. Larry E., U.S. Senator From Idaho....................     1
Mainella, Fran, Director, National Park Service, Department of 
  the Interior...................................................     3
Menendez, Hon. Robert, U.S. Senator From New Jersey..............     2
Salazar, Hon. Ken, U.S. Senator From Colorado....................     3

                                APPENDIX

Responses to additional questions................................    19



















 PROPOSED FISCAL YEAR 2007 BUDGET REQUEST FOR THE NATIONAL PARK SERVICE

                              ----------                              


                        TUESDAY, MARCH 14, 2006

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. The time has arrived. We will go ahead and 
start. Some are not here yet. Starting on time in the Senate is 
usually lonely. But we are going to have some votes at 3 
o'clock, so I think it is important that we get started and we 
will see who is able to come.
    I want to welcome our panel. Certainly, the Honorable Fran 
Mainella, Director of the Park Service, I am glad to have you 
here. And Mr. Sheaffer, Comptroller, and Steve Martin, Deputy 
Director, thank you so much for being here.
    Our purpose for the hearing is to receive testimony on the 
President's proposed budget for the National Park Service for 
fiscal year 2007. In addition of two new units in February of 
this year, the National Park Service is responsible for 390 
units in 49 States and U.S. territories. Over 23,000 employees 
support a mission that brings over 270 million visitors to our 
parks each year.
    Beginning in 2001, the budget for the National Park Service 
gradually increased from $2.2 billion to $2.6 billion in 2004. 
Then it began to decline in 2005. The President's request for 
2007 is $2.16 billion. This is a 5-percent or a $100 million 
reduction from the 2006 appropriation.
    The majority of cuts, I understand, are in construction and 
I am concerned about the impact this may have on the operation 
and the maintenance of our parks and ultimately the visitor 
experience. Heritage areas, studies of new park units, major 
maintenance, and escalating fixed costs contribute, of course, 
to the funding challenges of the parks and the services that 
they must deal with.
    I realize, however, that for all of us there needs to be 
some belt tightening to address the Federal deficit. We need to 
make sure, however, that any cuts are carefully reviewed and 
that we can avoid impacting the visitor experience or damaging 
the resource through neglect. And that is why we are here 
today.
    So I want to thank you very much for being here. And, as I 
said, I think really the thrust of why we are here is to get 
your views of what the budget means, where the changes that may 
have to be made will be made, and how in your view that will 
impact services and the resources of the parks. So thank you 
very much and please go right ahead with your testimony.
    [The prepared statements of Senators Menendez and Salazar 
follow:]
       Prepared Statement of Hon. Robert Menendez, U.S. Senator 
                            From New Jersey
    Thank you, Mr. Chairman, for providing us the chance to discuss the 
budget for this very important agency of the Department of Interior, 
and thank you, Director Mainella, for coming to share your expertise 
with this committee.
    I'm very concerned about the contradictions inherent in this budget 
proposal. There was an almost $85 million cut for the operations and 
maintenance of the parks in the budget, along with a $93 million 
decrease in construction funding. Yet the administration insists that 
it is living up to the President's campaign promise to help our 
national parks by ending their decade-long maintenance backlog. To me, 
this makes no sense. To make matters worse, the National Parks Service 
(NPS) is pushing a revision of the 2001 Management Policies that is at 
best unnecessary and at worst a sharp deviation from the principles 
that caused President Franklin D. Roosevelt to proclaim that ``there is 
nothing so American as our national parks.''
    The proposed change to the Management Policies threatens to shift 
the entire focus of the NPS from an agency designed to protect our 
parks to one designed to get the maximum use out of them. While I 
wholeheartedly believe that Americans should be able to enjoy their 
national parks through a wide variety of recreational activities, if we 
don't put the priority on conservation and protection, there will be 
nothing left for us to enjoy. This shift echoes other Interior policies 
of late, such as the decrease in the federal Land and Water 
Conservation Fund program and zeroing out of stateside grant program, 
the expansion of oil rigs along our continental shelf, and the 
attempted opening of public lands out west for oil and gas drilling. 
Time and time again, the administration's approach to our public lands 
is to try to exploit them for maximum gain, and I fear that this 
revision to the Management Policies is leading us down that road with 
our national parks.
    Furthermore, in spite of this administration's insistence that 
their new policies are for the benefit of park managers across the 
country, this revision was written and published without their 
knowledge or input. The process itself rejected the very managers and 
park professionals the document claims as its beneficiaries. Such a 
top-down, politically motivated process is further proof of the 
superfluity of these rewrites. This rewrite opens the door for 
increased commercialization of the park system, more flight paths 
across park boundaries, a relaxing of the limits on industrialization 
in surrounding communities, and a corresponding increase in noise and 
air pollution over the blue skies of our national parks.
    I'm also concerned about the delays that have been holding up 
proposed restoration and rehabilitation projects on Ellis Island, 
unquestionably one of our nation's most important historic sites. For 
several years, a dedicated group of private citizens have been working 
to preserve and protect the portion of Ellis Island that belongs to New 
Jersey, which although not as well known as the main building, contains 
structures that are just as historic, and were just as vital for the 
millions of immigrants who passed through the island seeking a better 
life in this country. However, their efforts have been delayed by the 
National Park Service, and I have submitted a question for the record 
to try to find out why this process is taking so long. I hope we can 
move forward on Ellis Island quickly to ensure that we don't lose any 
of its historic structures forever.
    In closing, our parks have been a source of national pride for over 
100 years, and the implications of this budget proposal, when combined 
with the proposed changes in the National Parks Service's Management 
Policies, leave me wondering what types of spaces future generations 
will be left to enjoy in another 100 years. Will my grandchildren be 
spending summer days at Sandy Hook, camping in Stokes State Forest, 
hiking in the Delaware Water Gap, and picnicking in local parks across 
the state? Or will these spaces be destroyed by rampant development and 
a federal policy that didn't adequately value conservation? I look 
forward to working with my colleagues to ensure the continued existence 
and vibrancy of our parks and open spaces, and I once again thank 
Director Mainella for being here. Thank you, Mr. Chairman.
                                 ______
                                 
   Prepared Statement of Hon. Ken Salazar, U.S. Senator From Colorado
    Thank you, Mr. Chairman and Ranking Member Akaka. I want to welcome 
Director Mainella.
    The National Park Service manages some of Colorado's most treasured 
lands and sites, including its four National Parks: Rocky Mountain, 
Great Sand Dunes, Black Canyon of the Gunnison, and Mesa Verde. I 
deeply appreciate the work that the Park rangers, the Park Police, the 
superintendents, and all the National Park Service employees do, day in 
and day out, to protect these crown jewels. You should be proud that 
visitor satisfaction at the Parks is over 95%.
    There are several aspects of the President's FY2007 budget for the 
Park Service that are positive. As a former Attorney General for 
Colorado, I appreciate the additional attention to law enforcement and 
park safety. Our National Parks should never be sanctuaries for 
criminals or drugs; we need the right investments in training and 
personnel to uphold the law and guarantee visitor safety across our 
expansive parks.
    On the whole, however, this year's budget for the National Park 
Service falls short in helping us meet the challenges that face our 
park system.
    Growing demands on Park resources are placing unprecedented 
stresses on the resources and infrastructure at our Parks. Years of 
neglect and underfunding have left the park system with a massive 
maintenance backlog that this budget does not even begin to address. In 
fact, this budget cuts construction and maintenance funding by 27%. The 
maintenance backlog that this Administration promised to eliminate will 
continue to grow under this budget.
    I am also concerned about tax dollars being wasted in the 
Department of the Interior's attempt to rewrite the Park Service's 
management policies. These policies were revised just five years ago, 
after a lengthy and substantive public comment process. I have yet to 
hear a good explanation for why these policies must be revisited now, 
given all the other pressures on the agency's budget.
    Perhaps the most troubling aspect of this budget is the elimination 
of the Land and Water Conservation Fund stateside grants program. By 
the Park Service's own standards, this is one of our most efficient, 
cost-effective partnerships between the federal government and state 
and local entities. Since its creation in 1964, it has provided 
Americans with over 40,000 parks, trails, and open spaces in 94% of our 
counties.
    The LWCF stateside grants program is of particular interest to 
Colorado's rural counties, many of which could not otherwise afford to 
build a playground at the elementary school, a walking path near the 
senior center, or a basketball court for its young people. Congress 
should restore its commitment to helping Americans be active and stay 
healthy by making permanent the funding for the LWCF stateside grants 
program.
    I look forward to discussing these issues today with Director 
Mainella and I thank her for being here.
    Thank you, Mr. Chairman.

STATEMENT OF FRAN P. MAINELLA, DIRECTOR, NATIONAL PARK SERVICE, 
  DEPARTMENT OF THE INTERIOR; ACCOMPANIED BY BRUCE SHEAFFER, 
         COMPTROLLER; AND STEVE MARTIN, DEPUTY DIRECTOR

    Ms. Mainella. Thank you, Mr. Chairman. Again, thank you for 
holding this hearing on our fiscal year 2007 budget request for 
the National Park Service. I also want to thank you for your 
continued support of the work we do in our national parks. You 
have been a great champion. I also would like to ask that my 
prepared testimony be included for the record.
    Senator Thomas. It will be included.
    Ms. Mainella. Thank you, sir. The National Park Service has 
attained a 96 percent satisfaction level by our park visitors. 
In 2004 visitation increased by nearly 4 percent, bringing it 
to nearly 280 million visitors.
    In addition, our volunteerism is also up by nearly 14 
percent. We have basically 137,000 people volunteering in our 
parks contributing a record five million hours. Our national 
parks also provide an annual economic benefit of nearly $12 
billion, and have created nearly 250,000 jobs. And as you have 
indicated we do have 390 units in the system at this time.
    This year's budget request of over $2.15 billion for the 
National Park Service will assist the administration in meeting 
its goal of cutting the Federal budget deficit in half by 2009. 
While total proposed funding is $100.5 million below the 
enacted level for fiscal year 2006, park operating funding 
would increase by over $23 million. There are a number of key 
programs that would also be increased and we are grateful for 
that.
    While there will always be challenges, as with any agency 
or organization, the innovative management approaches and the 
business practices we are implementing and the dedication and 
creativity of the 20,000 NPS employees will help us make more 
effective use of the funding we receive.
    The areas of focus include, first of all, visitor services 
and safety. Of approximately $1.7 billion proposed for the park 
operations, nearly $1.2 billion is requested for park base 
funding, a $20.6 million increase over fiscal year 2006.
    The fiscal year 2007 request also proposes key investments 
in visitor health and safety and law enforcement programs, 
including $500,000 to enhance the investigative capabilities of 
three of our park regions; $2.8 million for high priority 
police operations, particularly the U.S. Park Police; and 
$441,000 for NPS public health programs, including the avian 
flu issues. Also $750,000 to fund the FLETC training program so 
that parks will not have to pay for law enforcement training 
out of their everyday operational budgets.
    The second area we focus on, of course, is natural 
resources and its stewardship. The 2007 budget has $1 million 
additional for completing the inventory by the 32 networks 
throughout the National Park System that are identifying the 
vital signs of 272 natural resource parks. Also, for one of our 
favorite topics, exotic plants, there is $750,000 in additional 
money for enhancing our exotic plant management efforts.
    The third area is cultural resource stewardship. The fiscal 
year 2007 budget, if passed, would provide $1 million for our 
work on cultural landscapes and historic structures. And it 
includes almost $72 million for Historic Preservation Fund 
matching grants and Save America's Treasures, Preserve America, 
and Heritage Partnership programs, which you have been helping 
with through the heritage areas program legislation.
    The fourth area is enhancing the NPS asset management 
program. This request includes over $393 million for facility 
maintenance, including a $10 million increase for preventive/
cyclic maintenance and $229 million for construction. Included, 
also, is the $210 million for park roads provided through the 
Department of Transportation and their budget, and $100 million 
for maintenance from visitor fees. With this request, the 
administration will have committed $5.6 billion total to the 
maintenance backlog during the years 2002 to 2007.
    The fifth area of focus is continuing management reforms. 
One of the ways we are continuing to promote management 
excellence this year is through the revision of our 2001 
Management Policies. As you know this topic has been a subject 
of a hearing by this committee.
    In addition, we are implementing a core operations analysis 
which will assist park management in making effective decisions 
on staffing and funding alternatives that tie to core mission 
goals and ensure funds are spent efficiently. Also, our park 
scorecard will be included in the regional and servicewide 
budget formulation process this year.
    Two areas which the committee has made suggestions about 
before are included in the budget. One is for our partnership 
construction process oversight. The budget includes $310,000 
for that. Also, in concessions, which I know is an issue that 
has come before this committee, $911,000 is for improving our 
concession oversight.
    I know my time has come to an end, Mr. Chairman. I am proud 
to have great employees and a great leadership team that will 
assist me in implementing these important strategies as we 
approach the 100th anniversary of the National Park Service in 
2016. We would be very proud to answer any questions that you 
might have. Thank you, sir.
    [The prepared statement of Ms. Mainella follows:]
    Prepared Statement of Fran P. Mainella, Director, National Park 
                  Service, Department of the Interior
    Mr. Chairman and members of the subcommittee, I appreciate the 
opportunity to appear before you today at this oversight hearing on the 
FY 2007 budget proposal for the National Park Service (NPS). We thank 
you for your continuing support of the work we do on behalf of the 
American people to conserve our Nation's natural and cultural resources 
and to make them accessible to the public.
    The FY 2007 budget request of $2.156 billion for NPS supports goals 
to protect park resources, continue improvements in asset management, 
and achieve efficiencies in the management of park programs within the 
context of the Administration's goal of cutting the Federal budget 
deficit in half by 2009. Total funding is $100.5 million below the 
enacted FY 2006 level. However, park operations funding would increase 
by $23.4 million to $1.742 million. Specific increases for particular 
programs would strengthen the NPS in a number of key areas, and the 
innovative management approaches and business practices we are 
implementing will help us make more effective use of the funding NPS 
receives.
    The FY 2007 budget request also contributes to the NPS Legacy 
Goals, which are: management excellence, sustainability, conservation, 
outdoor recreation, and 21st Century relevancy. Each goal includes a 
number of specific objectives, many of which dovetail with the 
priorities of this budget request. For example, the objectives of our 
management excellence goal include, among other things, effective law 
enforcement, improving training programs, continuing partnerships to 
meet science and research needs, and addressing the concessions 
backlog. Those are all activities that would be enhanced under this 
request.
                      visitor services and safety
    Of the approximately $1.7 billion proposed for park operations, 
nearly $1.093 billion is requested for ``park base'' funding, a $20.6 
million increase over FY 2006 that will help parks cover most of the 
cost of increased Federal pay due in FY 2007. The majority of park base 
funding is provided directly to park managers to pay for operating the 
parks, including providing for interpretive ranger programs, staffing 
at visitor centers, daily maintenance activities, and other programs 
and activities that enhance visitor services and protect resources.
    This request sustains and builds on the significant park base 
increases of the two previous fiscal years--$25 million in FY 2006 and 
$63 million in FY 2005--that NPS received due to Congress's strong 
support for the National Park System. Enactment of the FY 2007 request 
will result in park base funding rising by $177 million, or 19 percent, 
since FY 2001. The FY 2007 request proposes key investments in visitor 
health and safety and law enforcement programs, including:

  <bullet> $500,000 for placing special agents in parks. These park-
        based special agents would provide investigative support for 
        ranger staffs in parks that extend over large geographic areas, 
        have numerous access points, and are in areas of Federal 
        jurisdiction where State and local agencies many not have the 
        authority, funding, or personnel to perform these services.
  <bullet> $750,000 for base funding for the Federal Law Enforcement 
        Training Center (FLETC). Centrally funding FLETC, instead of 
        paying for law enforcement training from individual park 
        budgets, will allow parks to dedicate critical law enforcement 
        funds to on-the-ground visitor and resource protection while 
        still ensuring that essential training is made available to law 
        enforcement personnel.
  <bullet> $2.8 million for high priority police operations, including 
        icon park security and recruitment and training for the U.S. 
        Park Police (USPP). This is expected to increase the force to 
        620 sworn officers by the end of FY 2007, up from 603 at the 
        start of FY 2006. A comprehensive review of USPP Force 
        requirements was conducted in accordance with recommendations 
        contained in the recent National Academy of Public 
        Administration (NAPA) report. This funding would ultimately 
        achieve a force strength recommended as a result of the review 
        that followed the NAPA report.
  <bullet> $441,000 for the NPS Public Health Program, allowing NPS to 
        adequately respond to potential outbreaks and disease 
        transmission issues, and to conduct routine evaluations for 
        safety of food, drinking water, wastewater, and vector-borne 
        disease risks in parks. The request also sustains $525,000 
        received in FY 2006 supplemental funding to address avian 
        influenza.
                     natural resources stewardship
    The FY 2007 request includes some specific increases to help 
address some of our most pressing natural resource protection needs, 
including:

  <bullet> $2.4 million for funding NPS' commitments under the National 
        Parks Air Tour Management Act of 2000, which directs the NPS 
        and the Federal Aviation Administration to collaborate on 
        developing commercial air tour management plans for all parks 
        where this activity occurs. These plans will help managers 
        prevent or minimize adverse impacts on natural soundscapes and 
        visitor experiences.
  <bullet> $1 million for completing a system of 32 networks throughout 
        the National Park System that are identifying the ``vital 
        signs'' of 272 natural resource parks. These inventory and 
        monitoring networks share fieldwork, staff, equipment, and 
        business practices leading to successful new partnerships with 
        universities and researchers through Cooperative Ecosystem 
        Studies Units and Research Learning Centers.
  <bullet> $750,000 for enhancing existing exotic plant management 
        teams to address severe damage caused by invasive species to 
        natural resources and the economy. These teams will operate in 
        three priority geo-regional areas--South Florida, the Northern 
        Great Plains, and the Rio Grande River Basin.
                     cultural resources stewardship
    As part of the Administration's Preserve America initiative, the FY 
2007 budget request proposes to focus resources for Preserve America 
grants, Save America's Treasures grants, and the Heritage Partnership 
program into a unified $32.2 million American Heritage and Preservation 
Partnership. This initiative would allow for better coordination and 
greater efficiencies in meeting the Administration's goals for 
enhancing and expanding opportunities for cultural resource 
preservation. The combining of these programs would allow local 
communities to determine which strategies best suit their heritage 
needs and to apply to the most appropriate programs to conserve 
heritage resources and promote heritage tourism. Other cultural 
resource investments in the FY 2007 request include:

  <bullet> $1 million to initiate an effort to provide complete, 
        accurate, and reliable information about cultural landscapes 
        and historic and prehistoric structures, enabling NPS to make 
        significant progress toward updating the Cultural Landscapes 
        Inventory and the List of Classified Structures (Historic and 
        Prehistoric) in FY 2007.
  <bullet> $39.7 million for Historic Preservation Fund matching grants 
        to States, Territories, and Tribes to preserve historically and 
        culturally significant sites.

               enhancing the nps asset management program
    The FY 2007 request continues the Administration's substantial 
investment in reducing the NPS deferred maintenance backlog. The 
request includes $393.5 million for facility maintenance, including a 
$10 million increase for cyclic maintenance, and $229.3 million for 
construction. Including the $210 million for park roads provided 
through the Department of Transportation and $100 million for 
maintenance from visitor fees, the Administration's deferred 
maintenance investment from FY 2002-FY 2007 would total $5.6 billion. 
Despite a reduction in line-item construction of $93 million, the $933 
million effort in FY 2007 toward reducing the deferred maintenance 
backlog is exactly equal to the five-year average effort from FY 2002-
FY 2006. These investments have enabled NPS to make significant 
improvements in the condition of critical facilities and other assets 
that serve visitors and protect park resources.
    In addition, NPS is transforming the agency's approach to managing 
and addressing its deferred maintenance backlog. During the past four 
years, NPS has been implementing the initial phase of an innovative 
asset management program focused on developing, for the first time, a 
comprehensive inventory and condition assessment of the agency's asset 
base, which includes everything from nearly 18,000 buildings to 
approximately 15,000 miles of paved and unpaved roads. Condition 
assessments on eight industry-standard assets, such as buildings, water 
systems, roads, and trails, will be completed at all parks by the end 
of 2006. Parks also have completed, for the first time, a 
prioritization of their asset inventory. This shift in emphasis for the 
agency is based on management reforms and performance measures, and 
features a state-of-the-art software system. These new tools will allow 
NPS to have a better understanding of the true cost of owning and 
operating structures. NPS also will be able to refine budget estimates 
and identify maintenance needs based on the actual condition of 
facilities, and identify the resources needed to bring the highest 
priority assets to an acceptable condition. Because of NPS's new 
approach to managing deferred maintenance, managers have a better 
understanding of both the quantity and condition of park assets, and 
greater accuracy when discussing park needs and accomplishments.
                      continuing management reform
    The NPS is being innovative and working toward reform in the way it 
manages natural and cultural resources, as well as in the way it 
manages money and information.
    One of the ways we are continuing to promote management excellence 
this year is through the revision of the 2001 management policies. In 
response to the request of the House Subcommittee on National Parks, 
the NPS has begun the process of updating the policies--which is our 
guidebook for park managers to implement the NPS Organic Act--to ensure 
that we conserve the resources unimpaired for the enjoyment of future 
generations, while providing for their current enjoyment. After an 
extensive public comment period which ended on February 25, the next 
step is for the comments to be compiled, considered, and reviewed by 
our career leadership team. The edited document will then be submitted 
to NPS employees and the National Park Service Advisory Board before 
any final product is approved by NPS and the Department. The proposed 
revisions would provide greater flexibility and tools for 
superintendents to make better and more informed decisions. They would 
maintain our strong commitment to the fundamental mission of the NPS to 
protect and allow for appropriate enjoyment of parks. One of the 
primary guiding principles is that, when there is conflict between the 
protection of resources and their use, conservation will be 
predominant.
    In an attempt to move toward greater levels of budget and 
performance accountability, the NPS continues to expand the use of the 
Program Assessment Rating Tool (PART), activity-based costing, and 
preliminary planning efforts associated with competitive reviews. PART 
evaluations and recommendations continue to inform both budget 
formulation and program management decisions. PART reviews were 
conducted on four NPS program areas for the FY 2007 Budget Request: 
Visitor Services, External Programs--Technical Assistance, External 
Programs--Financial Assistance, and Concessions Management. The NPS has 
completed ten PART reviews since FY 2002 and is planning one PART 
review for the FY 2008 budget cycle.
    The NPS continually works to further the integration of budget and 
performance. Over the past year, efforts have focused on a new core 
operations analysis process and the development of a NPS Park 
Scorecard. Our Core Operations Analysis is designed to assist park 
management in making fully informed decisions on staffing and funding 
alternatives that are based on realistic funding projections and tie to 
core mission goals. This process will ensure that funds are spent in 
support of a park's purpose, that funds are spent in an efficient 
manner, that a park's request for funding is based on accurate data, 
and that there are adequate funds and staff to preserve and protect the 
resources for which parks are responsible. The NPS goal is to integrate 
management tools, such as the Budget Cost Projection Model, Business 
Plans, Core Operations Analysis, and the Park Scorecard, to provide a 
more qualitative basis for decision-making.
    The Park Scorecard is designed to be an indicator of park 
financial, operational, and managerial performance. It is used, in 
conjunction with other factors, to identify and evaluate base budget 
increases and potential park performance if budget increases are 
received. The scorecard is used together with the Operations 
Formulation System (OFS) to offer context for proposed base budget 
increases and will eventually be integrated within the OFS system. In 
2006, the newest version of the Park Scorecard will be tested, piloted, 
and integrated into the Regional and Servicewide budget formulation 
processes leading to a national priority list for park base funding 
requests for use in future budgets.
    Two proposed increases in the FY 2007 request that would contribute 
significantly to improved management are:

  <bullet> $310,000 for managing and supporting the newly established 
        Partnership Construction Process (Building Better Partnerships 
        Program). The Service would secure outside expertise to assess 
        the capacity of partners to raise funds and evaluate business 
        models for economic development. The increase would also be 
        used to manage the Monitoring and Tracking Database System to 
        monitor fundraising efforts and partner construction projects, 
        generate reports, and maintain the partnership webpage.
  <bullet> $911,000 for improving concessions contracting oversight so 
        NPS can achieve its program goals of reducing the contracting 
        backlog and effectively managing the concessions program.
                             other programs
    As part of the President's effort to cut the budget deficit in half 
by 2009, the Administration had to make difficult choices in its FY 
2007 budget request that resulted in reduced funding for some lower-
priority programs. Funding for LWCF State grants is not being 
requested, with the exception of $1.6 million to administer prior year 
grants. However, the request continues a limited amount of funding for 
Federal land acquisition, of which nearly $22.7 million would be for 
the NPS portion of the Federal land acquisition program, including $5 
million to acquire critical land at the Flight 93 National Memorial and 
$4 million to continue the Civil War Battlefield Preservation Grants 
program. These Civil War grants would garner a minimum of $4 million in 
matching funds.
    Mr. Chairman, that concludes my summary of the FY 2007 budget 
request for NPS. We would be pleased to answer any questions you and 
the other members of the subcommittee may have.

    Senator Thomas. Well, thank you.
    Ms. Mainella. I tried to zip through that.
    Senator Thomas. Good job.
    Ms. Mainella. Thank you.
    [Laughter.]
    Senator Thomas. I am going to get over there to vote after 
all. Well, that is great. And I think you touched on many of 
the items that are there.
    It is my understanding, then, that this $100 million less, 
which represents 5 percent of your funding, much of that will 
come out of either construction or maintenance. Is that 
correct?
    Ms. Mainella. It is from construction, land acquisition, 
and a program that I know many of us certainly have enjoyed, 
the land and water conservation fund State grants.
    Senator Thomas. I see. How does construction tie in or what 
is the relationship between that and backlog management?
    Ms. Mainella. Well, in this budget there is $933 million 
worth of maintenance backlog funding. So we continue to move 
forward on that. As you know, construction does address not 
only new facilities, but sometimes rehabilitation of facilities 
that were in difficult condition. We do feel, though, that we 
are taking major steps forward on the maintenance backlog. And, 
if you remember, the President made a commitment of $4.9 
billion that would be used to address the backlog. With this 
budget, we will be at $5.6 billion in that effort.
    Senator Thomas. The question of backlog has been there for 
some time of course and you have been making some progress. 
What will this do, in your view and generally, to the growth or 
to the percentage of progress that you will be making?
    Ms. Mainella. Well, I think that, again, we are moving very 
positively. We will increase in this budget by $10 million the 
focus on cyclic maintenance, which means that we will have gone 
from the year 2002, I believe, where we had about $24 million, 
up to now about $71 million in cyclic, which means we are 
trying to get in a preventive stage.
    Now we did drop the repair/rehab down by $10 million, but 
we expect that through some of our fees that are coming in that 
you have helped us with, we will use about 50 percent of those 
fees toward maintenance. We feel that will help balance or at 
least be part of that effort.
    As far as measuring our maintenance backlog, no longer are 
we doing that by how much money we spend. We have done 6,000 
projects toward maintenance. But we do look at it under what is 
called a facility condition index. And in the green book there 
are charts that deal with how each area, each region, is 
addressing what are called standard assets, their paved roads 
and structures, and where they plan to be at the end of 2007 as 
far as that facility condition index goes. It will make some 
movement forward.
    It is still going to be a process; as you know, there is 
really never an end to the maintenance backlog. There always 
will be a backlog. We just had hurricanes. I guarantee you, 
even with the hope that you will all support the supplemental 
for hurricanes for National Parks, $55.4 million, we will still 
have damaged facilities in a ``backlog'' status because it is 
going to take us a year or more to certainly work on those.
    Senator Thomas. Okay. All right. Thank you. Senator 
Alexander, we started right on time because we are going to 
have to end here soon. Would you care to make an opening 
statement?
    Senator Alexander. So she has not yet----
    Senator Thomas. She has.
    Senator Alexander. Oh, she has.
    Ms. Mainella. I zipped on through it. Sorry.
    Senator Alexander. I would like to----
    Senator Thomas. She referred to all of your requests in the 
budget.
    [Laughter.]
    Senator Alexander. Well, thank you, Mr. Chairman. Would it 
be appropriate for me to ask a couple of questions?
    Senator Thomas. Absolutely. Go right ahead.
    Senator Alexander. Okay. Good. Thank you for being here. 
And I will make my questions brief. First, I want to thank you 
for the work you have been doing with our committee, with the 
chairman and others of us who are interested in the management 
policies.
    Ms. Mainella. Thank you.
    Senator Alexander. Because all of us are concerned about 
that. And I look forward to the hearing that, I believe, is 
planned for later on down the road on that subject.
    Ms. Mainella. Yes, sir.
    Senator Alexander. But in a recent hearing with Secretary 
Norton, I asked her questions about what would happen when 
there is a conflict between the protection of resources and use 
and other needs in the park. And what would be predominate. And 
I noticed that you say in your testimony today that your 
reforms would maintain our strong commitment to the fundamental 
mission of the National Park Service to protect and allow for 
appropriate enjoyment. One of the primary guiding principles is 
that when there is a conflict between the protection of 
resources and their use conservation will be predominate.
    Ms. Mainella. Yes, sir.
    Senator Alexander. And I also received a letter from 
Secretary Norton today making that clear. So I appreciate very 
much that statement and hope that is a guiding principle in the 
management policies that you are developing because I think 
that will relieve a lot of the concerns that some of us had 
about the direction some things were going.
    Ms. Mainella. Senator, again, after our meeting with you we 
had some discussion with the Secretary and as a result, you do 
have a letter in front of you that she did send that does 
reaffirm what both Deputy Steve Martin and I have said in our 
testimonies dealing with management policies and budget, that 
when there is a conflict then conservation will be predominate. 
Obviously we will continue to work together to hopefully, as we 
do in anything, to just avoid conflicts where possible. But, 
when there is a conflict we will have conservation as 
predominate. Yes, sir.
    Senator Alexander. Thank you very much. Now on the 
Landwater Conservation Fund, without--this is a tight budget 
year. And I understand that. But, as we have discussed before 
there are two opportunities that might present an opportunity 
for something like a conservation royalty of the kind Wyoming 
enjoys on oil on its property. That when we have offshore 
drilling that we might take some of those resources and devote 
them to conservation purposes. Something like a conservation 
royalty to a State. I don't want to take away any other--any 
existing. I just would like to see more of that. One of those 
is if we were to pass Landwater, which several of us are for, 
there is in the budget a reserve fund that would devote some of 
the revenues, a billion dollars over 3 years, to conservation 
purposes.
    A second is in the discussion of Lease 181. There has been 
some discussion that there might be a conservation royalty that 
would go to State Landwater Conservation Fund, which is a 
popular program, important program, and there is not much 
controversy about the State Landwater Conservation Program.
    I would hope that you and the administration, if those two 
pieces of legislation make their way through Congress, will 
fight to keep in the legislation the special funding for the 
Landwater Conservation Fund.
    Ms. Mainella. Senator, as a past administrator of the 
stateside Land and Water Conservation Fund grants, we believe 
that it is a very important program. We know that in the PART 
review that OMB has worked with us on there are areas we need 
to improve upon. But we would be very honored to work along 
with you, and any other members of this committee or others, to 
assist in finding a way to assist with the stateside funding. 
And I do offer Comptroller Bruce Sheaffer to assist in any of 
his areas of expertise to help you in that effort.
    Senator Alexander. Thank you.
    Mr. Chairman, is there time for one more question?
    Senator Thomas. Yes, sir.
    Senator Alexander. Did you all discuss the funding for 
salary increases yet today? I wanted to ask you to make sure I 
understand it. As I understand it, when we do not increase 
funding enough, and we order you to pay a salary increase, you 
have to take that funding out of operation funds for the park.
    Ms. Mainella. Yes, sir.
    Senator Alexander. So while it might seem like there is 
more money for maintenance and there is more money for, well 
not maintenance, but there is more money for operations of the 
park, in fact there is less than one might hope because you had 
to take some of that out to pay salaries. That is going to be 
true with this budget, is it not? I mean you are going to have 
to take some money out of operations to pay salaries of park 
employees. And to what extent is that true and how does that 
compare with what has happened in past years?
    Ms. Mainella. Senator, in this particular budget, again, 
the Secretary and others have really helped us to try to keep 
as much of the focus on every day park operations as possible. 
And as a result we do have coming year salaries of a little 
over a $20 million increase. This will cover about 70 percent 
of the salary increase as proposed in this budget, which is at 
a 2.2 percentage level for both civilian and military 
personnel.
    Of course, if the salary increase goes any higher than that 
2.2, then we would be absorbing a greater percentage than the 
30 percent that is reflected here. I do want to comment though 
that last year we did come to you with a request for 100 
percent of our salaries to be covered. But in the end, because 
of the difference between military and others, and other 
things, the way the bottom line is that we still ended up 
absorbing about 30 percent, because there was, as you know--
necessary because of hurricanes--an across-the-board 1 percent 
cut that was assessed in the 2006 budget. So we are functioning 
in the 2006 budget with about a 70 percent fixed-cost level 
covered.
    Also, just for your further information, from 1994 until 
2004 we were running at about 60 percent coverage of our 
salaries. So it has been a problem in the past in having that. 
And when we do have to absorb, again, we have great employees. 
They find creative ways to do that. But, it does mean that they 
have to make some managerial decisions.
    Senator Alexander. Thank you, Mr. Chairman. It looks like 
we may need a little truth in legislating provision for 
ourselves because we are maybe making it look like we are 
providing more money for the operations of parks when in effect 
it might be 60 or 70 percent of what it looks like.
    I have a couple of other questions. I will just submit them 
to her to be answered later.
    Senator Thomas. Thank you, sir. I have a couple of more 
questions, Director. As you might imagine when we talk about 
reductions, then people ask are there going to be increases in 
entrance fees and those kinds of things. Is that on anyone's 
mind?
    Ms. Mainella. Well, as you know, this committee has helped 
us to move from a fee demo program to a permanent fee effort. 
And those fees have been very important in all our parks. And, 
again, they do not cover everyday operations. They are to cover 
additional visitor services, and part of that is making sure 
our facilities are in good shape.
    We have gone out through civic engagement, public 
involvement, to communities to find out views on increasing a 
fee where our superintendents have made recommendations to us 
in that regard. And there are going to be determinations, based 
on working with the communities and working with our 
superintendents, and the environmental community and others, 
that it would probably be beneficial to some parks to have some 
increases. I think we are forecasting approximately 23 units 
that might be considering increases. That is out of 390. But I 
think, again, our fee increases may cover up to about $10 
million.
    Senator Thomas. So this is sort of the normal increase.
    Ms. Mainella. Yes, it is normal. And because of the 
legislation, we are going to be able to look at this on a 
regular basis. But, again, we always have to make sure our 
parks are accessible for all economic levels. And we need to 
make sure, again, that people are comfortable with any fees we 
move forward with.
    Senator Thomas. So these are not designed to take up 
reduction?
    Ms. Mainella. No, no offset at all. It is very important.
    Senator Thomas. What about as we go forward? You have 390 
units and there are other things. What impact does this have, 
as we look in the future and here on this table there will be 
some more requests for other units to be formed?
    Ms. Mainella. Mr. Chairman, I think it is really important. 
Our testimony will still continue to show, I would expect, that 
we will be very hesitant to ever add on new units in the 
National Park System, but we will do it when appropriate. There 
are places that are just exceptional, as we have just seen with 
the African Burial Ground in New York City where 20,000 
enslaved and free Africans died there from the 1600's to the 
1700's. When something like that comes to us--and this 
particular opportunity came to us with moneys to operate it and 
a visitor center to assist us--we are going to look at those. 
Also, the Carter G. Woodson Home that is here in Washington, 
D.C. just came in. It did not come with that aspect, but still, 
it was so critical, I think, to the story of this country that 
we have to make those value decisions. And when we do, we do it 
very cautiously. And we ask that you work with us on that 
effort.
    Senator Thomas. We will all have to take a little closer 
look at what the values are. Now, as I recall, you do get 
highway funds that are outside of this budget. Is that correct?
    Ms. Mainella. We do get $210 million thanks to the Federal 
Highways bill that helps us. If you remember, the maintenance 
backlog, when it was first defined at $4.9 billion, $2.7 
billion--more than 50 percent of that--was roads, because that 
is one of our big issues. And with the Federal Highways 
Program, I know this is going to help us immensely. So this is 
outside of our budget.
    Senator Thomas. I am a little parochial. I was up, Steve, 
in Teton Park last week looking at the roads. But they were all 
covered up with snow so I could not really----
    Mr. Martin. We got a lot of snow this year.
    Senator Thomas. Yes, there really was. It was great. 
Speaking of that, however, being a little parochial, we have 
had a long-term transportation planning process in Teton Park. 
What is the status of that, and why is it being delayed as much 
as it has?
    Mr. Martin. The plan, I think we are hopefully on its last 
home stretch here. We had to redo the plan that was first put 
together by our park, Grand Teton, recently because some of the 
provisions in it were well beyond what we could reasonably 
expect to fund. So whereas we still have some of that in there, 
we had to characterize it in a way that emphasizes things that 
we feel we can accomplish in the next 10 to 15 years.
    And then, also, we wanted to take a closer look at some of 
the trail provisions and make sure that we had a good viable 
multi-use trail system that connected with the community, so we 
sent it back. And we apologize for the delays, but we should be 
in the home stretch here.
    Senator Thomas. That is good. Maybe we can get more money 
out from Everglades, do you suppose?
    [Laughter.]
    Senator Thomas. You have a question? More? Go right ahead. 
We will go until the bell rings.
    Senator Alexander. Okay. Thanks. First, Mr. Chairman, I 
would like to ask if I could include in the record the letter 
from Secretary Norton to me following up our conversation about 
the predominate purpose of national parks.
    Senator Thomas. It will be in the record.
    [The information referred to follows:]

                                Department of the Interior,
                                    Washington, DC, March 14, 2006.
Hon. Lamar Alexander,
U.S. Senate, Washington, DC.
    Dear Senator Alexander: I wanted to follow up on our conversation 
that occurred during the recent March 2, hearing on the Department of 
the Interior 2007 budget and to assure you that our disagreement with 
regard to the draft 2005 Management Policies was more a question of 
semantics than substance.
    I believe that current and future enjoyment of the parks depends 
upon maintaining unimpaired park resources. That is our statutory 
obligation. At the hearing, I quoted to you the relevant portion of the 
1961 Organic Act that describes the mission of the NPS. That section 
states:

        ``[the] purpose is to conserve the scenery and the natural and 
        historic objects and the wildlife therein and to provide for 
        the enjoyment of the same in such manner and by such means as 
        will leave them unimpaired for the enjoyment of future 
        generations.''

    The quote you cited in the hearing was from the 2001 Management 
Policies, not the 1916 Organic Act. Management of parks presents 
complex challenges, since park managers have to address use and impacts 
consistent with the overarching mission of the parks, which is to 
protect park resources and values to ensure that these resources and 
values are maintained unimpaired. This statutory directive inherently 
required careful evaluation of uses, scientific study, monitoring, and 
other factors.
    Both Director Fran Mainella and Deputy Director Steve Martin, in 
public statements, including February 2006 testimony presented to the 
Congress, have stated, and I agree, that when there is a conflict 
between the protection of resources and use, conservation will be 
predominant. This recognizes that while we welcome public use and 
enjoyment in our parks, we will not allow uses that cause unacceptable 
impact, are inconsistent with park purposes or values, unreasonably 
interfere with park programs or activities, disrupt the operation of 
park concessions or contractors, create an unsafe or unhealthful 
environment for visitors or employees, result in significant conflict 
with other appropriate uses, or diminish opportunities for current or 
future generations to enjoy park resources and values. We recognize 
that the conservation of park natural, cultural, and historic resources 
provides the foundation for public enjoyment of our national parks.
    Parks serve a very important function in our society. They are not 
wilderness areas, unless specifically designated as such. If 
``conservation'' is viewed as a wilderness standard requiring that all 
resources remain in their pristine state, we would have no visitor 
centers, no ranger housing, no hotels, and no roads in parks. While a 
few of us would be able to enjoy these areas in their pristine state, 
the classic American family vacation of loading the kids in the care 
and driving through Yellowstone or the Great Smokies would not exist. 
Parks fulfill an important visitor service function. They provide 
education and enjoyment and an introduction to the great outdoors for 
many who would otherwise miss an inspiring experience.
    Over the years, since adoption of the Organic Act, our 
understanding of caring for parks has evolved. In the past, park 
managers erroneously allowed eradication of predators, feeding of wild 
animals, and building of visitor centers in sensitive area that damaged 
resources. All of these today would be considered inconsistent with the 
Organic Act and the conservation of the parks. To make proper decisions 
we need policies that stress sustainable cooperative conservation that 
works for managing the birthplace of Dr. Martin Luther King as well as 
managing the bison herd at Yellowstone, not a simple litmus test or 
bumper sticker phrase that lacks practical efficacy.
    The 2005 proposed Management Policies are in draft form. This is 
why we have put them out for public comment and are now evaluating 
those comments. I am confident that our policies, when completed by the 
Director and her career staff, will accomplish this difficult task.
    I believe both you and I have the same goals for our national 
parks. I want Americans to love our national parks, and that love 
arises when people are encouraged to visit. I want their experiences to 
be thoroughly enjoyable because they see spectacular scenery, encounter 
abundant wildlife, and use clean and comfortable facilities. I am 
confident that our park managers will be able to achieve this in a 
manner consistent with the Organic Act of 1916.
    Please don't hesitate to call me if you would like to talk further 
about this manner.
            Sincerely,
                                            Gale A. Norton,
                                                         Secretary.

    Senator Alexander. And second, Madam Director, you and I 
have talked before about the proposed North Shore road in the 
Great Smoky Mountain National Park, which has been called for a 
long time the road to nowhere. At least those who are against 
it call it that. And the National Park Service is in the final 
part of an environmental impact statement on that. It is called 
that by a great many people in North Carolina and Tennessee 
especially.
    If I have it right, the draft environmental impact 
statement suggested that fully building the road might cost up 
to $600 million. Even a partial building of the road to the 
Bushnell area might cost $110 million. Well, the annual road 
budget for the Great Smoky Mountain Park is only about $9 or 
$10 million, so the cost of this road would be three times, I 
believe, the National Park Service's own annual road budget.
    What I am getting around to is that all of us have 
recognized for 40 years that the United States has an 
obligation to Swain County, North Carolina, as a result of 
agreements made when the National Park was created. And there 
was a contract signed by the Tennessee Valley Authority, the 
State of North Carolina, Swain County, and the Department of 
the Interior.
    The Supreme Court said 40 years ago that in changed 
circumstances it was not necessary to build a road. I support 
the idea of a monetary cash settlement to Swain County. So does 
the State of North Carolina, according to its Governor. So do 
the elected officials of Swain County.
    The third signatory to the agreement was the Tennessee 
Valley Authority, and I have a letter from Chairman Bill Baxter 
to Secretary Norton today which says that they agree that the--
the TVA agrees that the National Park Service's--with the 
National Park Service that the alternative with the least 
environmental impact is the one that does not involve any 
construction.
    So that only leaves the Department of the Interior of the 
four signatories. Now I know there are different opinions about 
this, but three of the four signatories have now said that the 
road is not a good idea. The two U.S. Senators from Tennessee 
agree with that. The Governor of Tennessee, as well as the 
Governor of North Carolina agree with that.
    I think out of fairness to the people of Swain County we 
should pull together to try to see if we can come up with a 
monetary settlement. And I know you do not have a solution to 
that today, but I think--I would urge you, if you can, to help 
bring this to a conclusion. It seems to me totally impractical, 
a waste of tax money, and an environmental disaster to build a 
$600 million road to the Great Smoky Mountain National Park at 
this stage. And we are just failing to meet our obligation to 
the people of Swain County if we do not shift gears and begin 
to focus on how we can do that through a cash settlement 
instead.
    I would like to include, if I may, Mr. Chairman, this 
letter from the Chairman of the Tennessee Valley Authority 
dated March 10.
    Senator Thomas. It will be included.
    [The information referred to follows:]

                                Tennessee Valley Authority,
                                                    March 10, 2006.
Hon. Gale A. Norton,
Secretary, Department of the Interior, Washington, DC.
    Dear Secretary Norton: The Tennessee Valley Authority (TVA) is a 
cooperating agency in the preparation of the Environmental Impact 
Statement (EIS) on the North Snore Road Project in Swain County, North 
Carolina. In that capacity, we are currently reviewing the Draft EIS 
and anticipate submitting comments as a cooperating agency at a later 
date. TVA is also a party to the 1943 agreement under which 
construction of the North Shore Road is contemplated. I am writing you 
today to apprise you of TVA's position on this proposal.
    TVA agrees with the National Park Service's (NPS) determination 
that the alternative with the least environmental impact is the one 
that does not involve construction; namely, the Monetary Settlement 
Alternative. Accordingly, we concur in the identification of this 
alternative as the Environmentally Preferred Alternative for the 
purposes of National Environmental Policy Act review.
    The Draft EIS did not identify NPS's preferred alternative to allow 
consideration of public comments on the completed environmental 
analyses and revised cost estimates for the build alternatives. These 
public comments and environmental analyses will also help inform the 
decisions TVA may have to make about this. Based upon our preliminary 
review, TVA believes the range of identified alternatives is 
appropriate and that any of the action alternatives could potentially 
form the basis for an agreement discharging the Department of Interior 
from any remaining obligations under the 1943 agreement.
    TVA has already fulfilled its obligations under the 1943 agreement 
by acquiring and transferring to the U.S. Department of Interior 
approximately 44,000 acres of land on the north shore of Fontana 
Reservoir. Should the other parties to the 1943 agreement reach 
consensus on the North Shore Road issue and decide to enter into a new 
agreement, TVA would be pleased to review the proposal and determine if 
we should become a party to the new agreement.
            Sincerely,
                                               Bill Baxter,
                                                          Chairman.

    Ms. Mainella. Thank you, Senator. Also, just a comment. 
Steven Martin is going to, I think for the first time, go to 
the Great Smokies as he leaves here today. So, he will have a 
chance to get more familiar with these issues as well. Thank 
you.
    Senator Thomas. Okay. Thank you.
    A proposed budget has placed funding of the National 
Heritage Areas under the Historic Preservation Fund. What 
authority do you have to fund National Heritage Areas in this 
manner?
    Ms. Mainella. I am going to ask Bruce Sheaffer, if he 
would, to comment on that for me, please.
    Mr. Sheaffer. We have included appropriation language that 
would allow it so it would be commensurate with the passage of 
the bill. We would have the authority if it is passed as now 
written.
    Senator Thomas. Okay. Will the use of that fund cause a 
reduction in the funds for the preservation grants or other 
funds for State historic preservation offices?
    Mr. Sheaffer. Not specifically, no. They would not in any 
way affect the use of the other funds. No. No, they would not.
    Senator Thomas. Okay.
    Mr. Sheaffer. I gather that the intent of the question is 
that we are not even requesting the full amount that is made 
available in the Historic Preservation Fund this year or have 
not for many years. So, no. It will minimally affect the total 
amount of the unappropriated balance in the Historic 
Preservation Fund, if that is the nature of your question.
    Senator Thomas. Yes. Well, there are broader opportunities 
to use it for other things there. And I am just wondering what 
impact it would have.
    Mr. Sheaffer. Yes, sir. That is correct.
    Senator Thomas. The administration proposes an offset of a 
million dollars to cut services by filming permits. Do you 
anticipate an increase in the revenue from this source?
    Ms. Mainella. Mr. Chairman, I do believe that we are 
looking at about a $1.6 million increase as a result. Don 
Murphy was not able to join us today. He is the deputy that is 
overseeing those efforts. But there is, if my understanding is 
correct, action that will be taking place next month to give us 
the authority to be able to collect these location fees, which 
we have not been able to actually do thus far. Is that correct, 
Bruce?
    Mr. Sheaffer. That is correct. We will be operating under 
an interim plan awaiting final certification of a regulation 
that would apply to all Federal land-managing agencies. And in 
the interim we will be applying a rate structure that is the 
equal to the BLM structure that they have posted. So, yes, we 
expect additional revenues to offset this decrease.
    Senator Thomas. I see. Good. It would be interesting to 
note that the budget projects a $6.5 million decrease in fixed 
costs for interpretation and education of rangers. Fixed costs 
in this program are declining while fixed costs for other 
programs are not; why is that?
    Ms. Mainella. Let me just first of all start this by being 
very clear. We do not cut our interpretive rangers; they are 
critical. Their core mission is, as Steve Martin would call it, 
to the Park Service. What we have is a budget effort that just 
moves them from one place to another. And I would turn to Bruce 
to help further explain that in a better way for me.
    Mr. Sheaffer. It is kind of an anomaly of the budget. We 
propose in this budget to shift the funding for the Harpers 
Ferry Center from the ONPS account to the construction account. 
And what you see is the effect of that shift. If that were not 
part of the formula here, there would actually be a net 
increase of about $3.8 million on that line you reference.
    Senator Thomas. I see. Okay. Well as strongly as I feel 
about parks and the preservation, as we all do, in this kind of 
a budget setting and this sort of a deficit situation, we have 
to manage a little differently and a little better. So I admire 
your efforts to take a relatively small reduction and adjust 
your management in such a way that you can continue to provide 
the services that are there and protect the resource and do the 
job that the parks are all about.
    So, we have about 1 minute, Mr. Alexander.
    Senator Alexander. I can do a 30 second question.
    Ms. Mainella. But can I do a 30 second answer?
    Senator Thomas. Let's time him and see.
    Senator Alexander. Could you tell us how the Park Service 
is doing to budget operational funding increases for the 
Chickamauga and Chattanooga National Military Park for staff 
and interpretive resources? Congress directed funding for the 
Park Service to begin stabilization of the riverbank in the 
Moccasin Bend Archeological Area of the Chickamauga Chattanooga 
National Park last year. And if you do not have that right on 
your fingertips, you could answer it in a letter.
    Ms. Mainella. I am looking over to Mr. Sheaffer here 
quickly. But, again, as you know, both you and Congressman Wamp 
and others have played an important role in adding Moccasin 
Bend to our unit, which is an important cultural resource to 
us. And I know we are trying to do all we can. But I don't 
know, Bruce, do we have that answer or do we need to get back 
on that?
    Mr. Sheaffer. Well, for a complete answer we need to get 
back. We have the status report and they are making progress on 
it. There will be future budget requests to finish the entire 
stabilization job up. But they are advancing.
    Senator Alexander. I would appreciate a report when you 
have time. And I know Congressman Wamp would enjoy seeing it as 
well.
    Mr. Sheaffer. Yes.
    Senator Alexander. Thank you.
    Mr. Sheaffer. By all means.
    Senator Thomas. Thank you guys. I am sorry we could not 
chat a little more. But I do feel comfortable with what you are 
doing with this budget and certainly we will continue to work 
with you as time goes by.
    Ms. Mainella. I just want to thank both of you and other 
members of the committee that I had a chance to visit with in 
advance of this hearing. I really appreciate the time you 
afforded me. Thank you.
    Senator Thomas. Thank you. We appreciate it. We look 
forward to working with you.
    [Whereupon, at 3:05 p.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

      Responses of Fran Mainella to Questions From Senator Thomas
    Question 1a. Budget Decrease: The Administration's FY 2007 budget 
for the National Park Service is $100 million less than FY 2006. That 
represents a 5 percent decrease in funding.
    Can we expect to see any reduction in park operations or visitor 
services as a result of the budget cuts?
    Answer. The 2007 budget request maintains the funding levels 
provided in the 2006 appropriation, which included a net increase of 
more than $24.6 million over 2005 park base funding. The 2007 budget 
request is a net increase of $23.4 million above the 2006 enacted 
level, which includes increases for salaries, benefits, and other fixed 
costs.
    The 2007 budget also proposes key investments in visitor services, 
health and safety, and law enforcement programs that impact the visitor 
experience. The budget includes an increase of $250,000 to strengthen 
the Service's capability to understand opinions about parks by 
expanding and refining the visitor services survey program. The budget 
also includes $500,000 for park-based special agents that will provide 
investigative support to park ranger staffs in parks. In addition, 
$750,000 is included to centrally fund the Federal Law Enforcement 
Training Center. An increase of $441,000 is requested to allow NPS to 
adequately respond to outbreaks and disease transmissions, as well as 
conduct safety evaluations of park food, drinking water, wastewater and 
vector-borne disease risks in the parks.
    Funding these increases, in conjunction with the combined 
implementation of ongoing management improvements, will ensure the 
continuation of enhancements to visitors and other services provided in 
2006.
    Question 1b. Do you anticipate raising entrance fees or other user 
fees to overcome budget shortfalls as a result of the proposed cuts in 
2007?
    Answer. About 14 park units are considering raising entrance fees 
in 2007 based on a pricing model proposed in 2006 to provide 
consistency and meet park visitor needs. In addition, some parks are 
likely to request changes to some expanded amenity fees (user fees) for 
2007 based on comparability studies. However, there is no direct link 
between the prospective fee increases and the proposed budget 
reductions. The largest part of the $100.5 million reduction in the NPS 
budget ($84.5 million) is in the Construction account. That reduction 
will not be offset by fee revenues. NPS plans to use $95 million in fee 
revenue for maintenance projects in FY 2006 and $100 million in FY 
2007. The second largest proposed decrease is the $28 million reduction 
for Land and Water Conservation Fund state grants. NPS is not 
authorized to use fee revenue to fund that program.
    Question 2a. Maintenance Backlog: The construction portion of the 
budget has decreased by $84.5 million from the 2006 appropriation. This 
is the lowest amount requested for NPS construction projects in the 
past 5 years.
    Will this decrease come solely from new construction project funds 
or will it also eliminate some maintenance projects required to reduce 
the backlog?
    Answer. The 2007 budget request focuses on protecting and 
maintaining existing assets rather than funding new construction 
projects. Assuming the President's budget request is funded, NPS 
intends to sustain the progress made in the asset management program, 
as measured by the facility condition index.
    Question 2b. By looking closely at project data sheets in the green 
books for FY06 and FY07, it appears that the majority of the cut in 
construction funding (over $74 million) is from major maintenance (see 
chart). Does this mean that the Administration has achieved the 
President's goal of fixing the maintenance backlog and is now shifting 
it's priorities to other areas?
    Answer. The proposed $84.5 million reduction in construction will 
reduce the number of projects overall, but the majority of the 
reduction will be in new construction projects. According to the 
Department's classifications, of the $121.9 million requested for line-
item construction, $39.3 million, or 32 percent, of the funding is for 
new construction. In 2006, $104.9 million, or 53 percent, of the line-
item construction dollars were programmed for new park facilities. The 
Administration still considers addressing the NPS deferred maintenance 
backlog a priority. The FY 2007 budget request includes $933 million in 
deferred maintenance funding for FY 2007--an amount equal to the 
average annual amount of funding provided from FY 2002 to FY 2006, but 
distributed differently among the various facility-related accounts 
from previous years.
    Question 2c. What type of long range program have you implemented 
to track the maintenance backlog and prioritize future maintenance 
requirements?
    Answer. The NPS is transforming the agency's approach to managing 
its facilities. During the past four years, NPS has been implementing 
an asset management program focused on developing, for the first time, 
a comprehensive inventory and condition assessment of the agency's 
asset base. Parks have completed, for the first time, a prioritization 
of their asset inventory. Condition assessments on eight industry-
standard assets (such as buildings, water systems, roads and trails) 
will be completed at all parks by the end of 2006. This shift in 
emphasis for the agency is based on management reforms and performance 
measures, and features a state-of-the-art software system. These new 
tools will allow NPS to have a better understanding of the true cost of 
ownership, including recurring operational costs of the facilities 
found in parks. Once condition assessments are completed, NPS will have 
a better understanding of the current deferred maintenance needs.
    Question 3a. Grand Teton National Park Transportation Plan: Several 
years ago, Grand Teton National Park began a long term transportation 
planning process. We still do not have a plan completed.
    What is causing the delay?
    Answer. The Grand Teton transportation plan has taken a long time, 
but NPS is in the final stages of completing it. Part of the delay is 
attributable to restarting the plan in 2004 after a decision was made 
to focus on actions that are achievable within a 5-10 year period.
    The draft plan was released for public comment in the summer of 
2005, and the park is now analyzing and developing responses to the 
more than 2,600 comments it received. We anticipate releasing the final 
plan/EIS in the fall of 2006, and signing a record of decision in the 
winter of 2006/2007.
    Question 3b. How much funding do you estimate it will take to 
complete the plan?
    Answer. We estimate that it will cost $75,000 to complete the plan 
and related compliance. NPS has spent $684,000 on the plan since 2001 
using a combination of park entrance fee revenue, NPS alternative 
transportation program funds, and Teton County funds.
    Question 3c. Will this budget provide enough to finish the Teton 
transportation planning process?
    Answer. We plan to use $75,000 in park entrance fee revenue, not 
appropriated funds, to complete the plan.
    Question 4a. The proposed budget has placed funding for National 
Heritage Areas under the Historic Preservation Fund.
    What authority do you have to fund National Heritage Areas in this 
manner?
    Answer. We believe that the appropriation language submitted with 
the President's Fiscal Year 2007 budget request would provide 
sufficient authority to fund the National Heritage Area program under 
the Historic Preservation Fund.
    Question 4b. Will the use of the Historic Preservation Fund for 
National Heritage Areas cause a reduction in funds for preservation 
grants and other funds provided to State Historic Preservation Offices?
    Answer. No. The amount proposed in the FY 2007 request for 
preservation grants and other funds provided to State Historic 
Preservation Offices is not affected by the inclusion of funding for 
National Heritage Areas in the Historic Preservation Fund account.
    Question 5. Visitor Services: The Administration proposes to offset 
a $1.6 million cut in visitor services with revenue from filming 
permits. This law has been in place for many years. Why do you 
anticipate an increase in revenue from this source in 2007?
    Answer. We expect parks to have the ability to begin collecting 
fees for commercial filming and certain still photography well before 
the start of FY 2007. As a temporary measure, to expedite 
implementation of the NPS commercial filming law (P.L. 106-206), a rule 
will be published very shortly to revoke the portion of 43 CFR 5.1 that 
prohibits NPS from collecting fees for filming. Thirty days after that 
rule is published, if no significant negative comments are received, 
parks will have the ability to collect commercial filming fees based on 
the fee schedule currently being used by the Nevada office of the 
Bureau of Land Management and in accordance with procedures explained 
in a guidance memo from the Director.
    As a long-term measure, the Department expects to publish this year 
a revised version of 43 CFR 5.1 that has been approved by the NPS, the 
U.S. Fish & Wildlife Service, and the Bureau of Land Management. That 
proposal will have a 60-day public comment period. It will be followed 
by publication of a proposed location fee schedule, which will also 
have a public comment period.
    Question 6. Visitor Services: The Administration's budget projects 
a $6.5 million decrease in fixed costs for interpretation and education 
Rangers. Why are fixed costs for this program declining while fixed 
costs for other programs are increasing?
    Answer. The $6.6 million reduction in the ``fixed costs and related 
changes'' column of the Interpretation and Education program in the NPS 
Budget Justifications reflects a shift of funding for one entity from 
one account to another. Funding for the Harpers Ferry Center ($10.4 
million) was moved from Interpretation and Education to the 
Construction account, in order to place the NPS interpretive design 
center in the same account as the construction design center (Denver 
Service Center). Had the Harpers Ferry Center remained in 
Interpretation and Education, the funding for that program would have 
shown a $3.8 million increase for FY 2007.
    Question 7a. Personal Watercraft: The NPS has been bogged down with 
a personal watercraft rulemaking for over six years.
    What is the reason for the delays, and what, if any, additional 
resources would help get this process back on track and the rulemakings 
completed?
    Answer. In 2000, when the NPS reached a settlement agreement with 
the Bluewater Network, the NPS committed to evaluating eight resource 
topics through the NEPA process for each affected park unit. The 
analyses to fully consider these topics were more involved than 
anticipated. While the NEPA analyses and promulgation of rules has 
taken a long time, at this point, rulemaking has been completed for all 
but five units. The status of those are as follows:

  <bullet> The final rule for Gulf Islands National Seashore is 
        currently under final signature review and should be published 
        in the Federal Register in the very near future.
  <bullet> The final rules for Cape Lookout National Seashore should be 
        published before the summer season.
  <bullet> The final rules for Gateway National Recreation Area and 
        Curecanti National Recreation Area should be published during 
        mid-summer of 2006.
  <bullet> Big Thicket National Preserve is finishing its NEPA work.

    Question 7b. Since the NPS has completed 15 of 15 favorable 
environmental assessments regarding the use of personal watercraft--
Will the NPS consider revisiting this PWC rule system wide--
Particularly to allow the use of PWCs in the parks that are still mired 
in the rulemaking process?
    Answer. At this time, the NPS has no plans to revisit the use of 
PWCs system-wide. Determination for PWC use at any park is based on an 
assessment of a unit's legislative history, regulatory authorities, and 
analysis of sound, air quality, wildlife safety concerns, visitor use, 
and the purpose for the park as described in its authorizing 
legislation. Each determination is made with public participation, 
including public meetings and participation by advisory commissions and 
State and local governments. As noted above, we are close to finishing 
work on the five remaining park units where PWC rulemaking has not been 
completed.
      Responses of Fran Mainella to Questions From Senator Talent
    Thank you for holding this hearing. I think it is important that we 
look in to the budget for the Park Service and I thank the witness for 
appearing before this committee.
    Question 1. I am a supporter of Heritage Areas--and I am hoping to 
get heritage area designations in Missouri because I believe that they 
are a good way to bring interested parties under the umbrella of one 
advisory board to make decisions about a site or region. Please respond 
to the following questions regarding Heritage Areas and the impact on 
property rights.
    Have the boundaries of heritage areas expanded after the original 
designation?
    Answer. There have been at least two National Heritage Areas that 
have added counties to their boundaries at the request of the local 
coordinating entity who manages the area, based on public support, 
relationship to the themes of the heritage area, and action by 
Congress. Because a feasibility study is required to be completed prior 
to designation, the boundaries of a National Heritage Area are normally 
drawn to include all the appropriate resources that relate to the 
national story and do not need to be revised after designation.
    Question 2. What percentage of heritage areas have non profits on 
their boards?
    Answer. Of the 27 National Heritage Areas, 12 have non-profit 
organizations as the local coordinating entity that are responsible for 
preparing a management plan for the area and implementing the 
initiatives identified in the plan. One area, Hudson River Valley 
National Heritage Area, is jointly coordinated by a State agency and 
non-profit while another, the Ohio and Erie National Heritage Canalway, 
is coordinated by a Federal Commission that is staffed by a non-profit 
corporation. In addition, several that are coordinated by Federal 
Commissions also have non-profit groups represented on their boards.
    Question 3. What oversight does the park service have over the 
funding? Could that be written into legislation at the time of 
designation?
    Answer. Generally, funds are appropriated through the National Park 
Service budget to the National Heritage Area. The NPS develops a 
cooperative agreement to provide the funding to the National Heritage 
Area and to provide oversight on how the funds are spent. Each area is 
required to hire an independent auditor who provides the NPS with an 
annual audit relating to Federal expenditures by the local coordinating 
entity.
    National Heritage Areas program legislation, currently pending in 
Congress, would also require each area to prepare an annual report to 
be submitted to the Secretary for each fiscal year that Federal funds 
are received. This report would specify performance goals and 
accomplishments, expenditures, grants made to other entities, amounts 
and sources of matching funds, and other funds leveraged by Federal 
dollars.
    Question 4. Does a heritage designation limit landowners access to 
their private lands?
    Answer. No. Designation as a National Heritage Area places no 
restrictions on the use, development, or access of private lands 
located within the area's boundary. In addition, authorizing 
legislation for all recently designated National Heritage Areas 
protects private property owners by specifically forbidding public 
access to private property without owner consent.
    Question 5. Missourians have shared with me three specific 
instances where heritage areas have resulted in infringements on 
property rights--inverse condemnation of property owned by individuals 
for the Appalachian Trail in Virginia; efforts in the Buffalo National 
River area to eliminate 1,000-1,100 homes; and efforts to purchase land 
in the Cuyahoga Valley near Akron, Ohio. Please comment on these 
situations and their relationships to heritage areas.
    Answer. The Appalachian National Scenic Trail, the Buffalo National 
River, and Cuyahoga Valley National Park are units of the National Park 
System, not National Heritage Areas. Each one has individual authority 
from Congress to acquire property under specified terms. The NPS has 
followed Congress' direction in both authorizing legislation and 
appropriations in acquiring property for those units. National Heritage 
Areas do not have Federal land acquisition authority except in rare 
cases where Congress has provided such authority.
    National Heritage Area designation places no restrictions on owners 
of private property including zoning and land use regulations. The 
legislation for each designated area provides protection for private 
property rights tailored to the specific needs of the region.
    Question 6. Do heritage areas pose a threat to private property 
rights in the area?
    Answer. No. National Heritage Area designation places no 
restrictions on owners of private property including zoning and land 
use regulations. All recently established National Heritage Areas have 
language in their authorizing legislation that explicitly protects the 
rights of private property owners. National Heritage Areas are based on 
the principle of collaborative conservation and have no regulatory 
elements. It should be noted that almost 49 million people live in the 
27 designated National Heritage Areas. To date, we have found no 
examples of private property complaints stemming from a heritage area 
designation. A 2004 GAO report on National Heritage Areas concluded 
that the designation of a site as a National Heritage Area does not 
appear to directly affect the rights of private property owners.
    Question 7. Does the advisory board, created by a heritage area 
have any authority over city, county, or state governments?
    Answer. No. For each National Heritage Area designated by Congress, 
the authorizing legislation identifies the local coordinating entity 
that will be responsible for preparing a management plan for the area 
and implementing the initiatives identified in the plan. Participation 
in any project or activity associated with the National Heritage Area 
is voluntary. These management plans are developed with extensive 
public involvement including coordination with city, county and State 
governments. The establishment of a coordinating entity for the 
National Heritage Area does not impact any existing authorities held by 
any unit of state or local government; in fact, all recently 
established National Heritage Areas include language in their 
authorizing legislation stating this.
    Question 8. Does the advisory board created by a heritage area have 
any authority over decisions made by a property owner?
    Answer. No. The local coordinating entity has no authority over 
property owners on how they use their land, nor does it impose any 
additional burdens on any property owner. All recently established 
National Heritage Areas have included language in their authorizing 
legislation that explicitly protects the rights of private property 
owners.
    Question 9. Does a heritage area lead to additional land purchases 
by the federal government?
    Answer. The designation of a National Heritage Area is not meant to 
lead to land purchases by the Federal Government and in fact, most 
recently established National Heritage Areas have included language in 
their authorizing legislation that explicitly bar the local 
coordinating entity from using appropriated Federal dollars for 
acquiring real property or any interest in real property. Designation 
as a National Heritage Area does not affect who owns the land within 
the area. If it is privately owned before designation, then it 
privately owned after designation; the same applies to publicly owned 
land.
      Responses of Fran Mainella to Questions From Senator Salazar
                land and water conservation fund (lwcf)
    Question 1. Director Mainella, the National Park Service recently 
published its 2005 State Land and Water Conservation Fund Annual 
Report, in which it concludes that the LWCF stateside grants program 
delivers excellent results. Your report says: ``nearly 55 million 
visits at 44 state parks represents only a small sampling of visitor 
use at the estimated 40, 000 state and local park sites assisted by the 
program. Year in and year out, the Land and Water Conservation Fund 
works in partnership with states and communities to deliver and protect 
opportunities for outdoor recreation.'' Does the National Park Service 
stand by this endorsement of the LWCF stateside grants program?
    Answer. Yes, the NPS stands by the statements in the report quoted 
above. For over four decades, NPS and its predecessor agencies have 
partnered with States and local units of government to provide public 
recreation opportunities through the 40,000 matching grants awarded 
through this program.
    Question 2. Given the Park Service's own assessment of the 
efficiency and effectiveness of the LWCF stateside grant program can 
you explain why it is being eliminated in this year's budget?
    Answer. The FY 2007 budget request does not include funding for 
Land and Water Conservation Fund State grants. As the Administration 
strives to trim the Federal deficit, focusing on core Federal agency 
responsibilities is imperative. Many of these grants support State and 
local parks that have alternative sources of funding through State 
revenues or bonds. In addition, a 2003 PART review found the current 
program could not adequately measure performance or demonstrate 
results. While the report you referenced includes some worthwhile 
information as to how the grants were used, the Administration remains 
committed to utilizing performance measures consistent with the 
Government Performance and Results Act.
    Question 3. Has the National Park Service evaluated the effects 
that cutting the LWCF stateside grants program will have on projects 
currently being built in rural communities?
    Answer. Regardless of where it is located, any project currently 
approved and being built should be completed. A project is not approved 
for a grant by NPS unless there are sufficient Federal funds in the 
grant award and an adequate local match to complete the project.
    Question 4. How many of LWCF stateside projects are currently 
underway in rural communities?
    Answer. There are currently 1,900 projects that have been approved 
but not yet completed throughout the nation. We have not determined how 
many of those are located in rural areas.
    Question 5. How do you propose finding funding to complete them, if 
the stateside grants program is eliminated?
    Answer. A project is not approved for a grant by NPS unless there 
are sufficient Federal funds in the grant award and an adequate local 
match to complete the project.
                          maintenance backlog
    Question 1. In 2000, the President promised to provide enough 
funding over five years to eliminate Park Service's maintenance 
backlog, which was estimated at the time to be $4.9 billion. It is now 
five years since that commitment and I am hearing estimates that place 
the NPS maintenance backlog somewhere between $4.5 billion to $9.69 
billion. That is to say that the maintenance backlog at the Parks seems 
to have increased over the past five years. Is that right?
    Answer. The estimated $4.9 billion maintenance backlog figure was 
identified in a 1998 General Accounting Office report (``Efforts to 
Identify and Manage the Maintenance Backlog'' GAO/RCED-98-143). That 
figure represented a compilation of desired projects in parks that had 
not been validated by systematic, comprehensive assessments of the true 
asset conditions or prioritized by NPS.
    We now know that the deferred maintenance backlog cannot be stated 
as a single, static dollar figure. What is important is the improved 
condition over time and knowing that the dollars spent made a 
difference in improving the condition of the asset. Our approach is to 
focus on what it will take to bring our assets to acceptable condition 
as measured by the facility condition index. For this reason, NPS is 
transforming the agency's approach to managing its facilities. Parks 
have completed, for the first time, a comprehensive inventory and 
prioritization of its asset base. NPS is also on track to complete 
comprehensive condition assessments on eight industry-standard assets 
(such as buildings, water systems, roads, and trails) by the end of 
2006. Once these condition assessments are completed, NPS will have a 
better understanding of its current deferred maintenance needs. Our 
goal is to bring the portfolio of assets up to acceptable condition, 
with performance measures used to prioritize investments.
    Question 2. What is the Department of the Interior's most recent 
estimate of the maintenance backlog at the Parks?
    Answer. Please see the answer above.
    Question 3. Do you have any projections of how the proposed budget 
for the National Parks will affect the total maintenance backlog, 
considering it will cut the construction and maintenance budget by 
$84.6 million, 27 percent?
    Answer. The Administration remains committed to reducing the 
maintenance backlog within the National Park Service, and the NPS 
continues to make significant progress in completing the numerous 
projects necessary to improve the condition of park infrastructure. 
Since 2002, nearly 6,000 projects have been undertaken and 
approximately $4.7 billion have been invested using line-item 
construction, repair and rehabilitation, fee, and Federal Lands Highway 
dollars. The 2007 budget proposes to protect the Administration's past 
investments by realigning funding within the NPS asset management 
program to focus on proactive measures that will preclude these 
resources from slipping to poor condition.
    The Cyclic Maintenance Program incorporates a number of regularly 
scheduled preventive maintenance procedures and preservation techniques 
into a comprehensive program that prolongs the life of a particular 
asset. The proposed increase in cyclic project funding would assist in 
preventing the continued deterioration of NPS assets. Increasing the 
project funding will afford parks the ability to maintain assets on a 
predictive cycle, rather than allowing them to fall into disrepair and 
ultimately adding to the backlog. Funds appropriated for the cyclic 
maintenance program would target those assets that are mission critical 
and still in maintainable condition, but could fall into poor condition 
without the proper application of life cycle maintenance. With the 
proposed increase of $10.0 million, the cyclic maintenance program now 
totals $71.5 million.
    The 2007 budget includes $86.2 million for the Repair and 
Rehabilitation program. Over the past five years, $345 million has been 
allocated for this program. In 2007, NPS will continue to prioritize 
projects that address critical health and safety, resource protection, 
compliance, deferred maintenance, and minor capital improvement issues. 
The budget request also includes a proposal to use additional 
recreation fee revenue for facility maintenance projects. For 2007, the 
Department estimates that $100 million in recreation fees will be used 
for deferred maintenance projects.
    Within the total proposed for construction, line-item construction 
projects are funded at $121.9 million. The budget request focuses on 
protecting and maintaining existing assets rather than funding new 
construction projects. Assuming the President's budget request is 
funded, NPS intends to sustain the progress made in the asset 
management program, as measured by the facility condition index.
                   revisions to park service policies
    Question 1. I and many of my colleagues have repeatedly expressed 
our opposition to the proposed changes to the National Park Service's 
policies. We feel that they undermine the core mission of the Park 
Service and are, quite frankly, unnecessary. Visitor satisfaction at 
our parks, after all, is over 95%, and the public seems quite satisfied 
with the existing policies, which were updated just five years ago. I 
appreciate you agreeing to extend your consideration of the policy 
changes another six months, but I do wonder how much this whole 
exercise is costing the taxpayer. What has been the cost--to date--in 
staff time, resources, etc., of your efforts to revise the current 
management policies?
    Answer. Periodic review and development of all types of management 
and policy documents are included within the duties of NPS employees 
and are not calculated separately.
    The NPS has a special web site programmed to efficiently process 
the large volume of comments they sometimes receive on documents that 
are released for public review. A contractor has been retained at a 
cost of approximately $39,000 to help sort and organize the Management 
Policies comments that have been submitted through this web site.
    Question 2. What do you expect the cost to be over the next year if 
you continue to consider revising these policies?
    Answer. The only additional expense associated with this effort 
that we currently anticipate is the cost of printing the revised 
policies. At this time, we do not have an estimate of that cost.
    Question 3. Considering that these policies were revised just five 
years ago, and given all the other needs in the Parks, is this really 
the best use of the Park Service's energy and resources at this time?
    Answer. We believe that revised and improved policies are needed 
because managers face continuing challenges as we preserve the parks 
while striving to serve our visitors and partner with our local 
communities. Every day, without fail, we are tested when we make 
decisions on what to do or what not to do; what to build or what not to 
build; what to allow or what not to allow. From these challenges, we 
learn and improve our practices.
                        national heritage areas
    Question 1. According to the National Park Service, National 
Heritage Areas ``preserve and celebrate many of America's defining 
landscapes.'' I find this to be true in Colorado--the Cache La Poudre 
NHA empowers local communities to work collaboratively with the state 
and federal governments to craft solutions that protect their natural 
landscape. The program is so effective in spurring collaborative 
conservation that I, with the support of the local communities, have 
introduced legislation to designate the South Park National Heritage 
Area and the Sangre de Cristo National Heritage Area in Colorado. These 
are two crown jewels of the American landscape and are worthy of NHA 
protection.
    Many of the existing national heritage areas are in their early 
phases and need Park Service expertise and support to get on their 
feet. If the Administration is in fact committed to supporting 
collaborative conservation, why is the Administration cutting funding 
for these great partnerships?
    Answer. The Administration is committed to supporting National 
Heritage Areas. The Administration's request for FY 2007 for Heritage 
Partnership Programs is $2.374 million more than the Administration's 
request for FY 2006. The Heritage Partnership Programs are a critical 
component of the Department's new umbrella activity, America's Heritage 
and Preservation Partnership Program, which will also include Save 
America's Treasures and Preserve America. Even after Federal funding 
for a National Heritage Area reaches its authorized limit, the NPS 
continues to provide technical support to the area indefinitely.
    Question 2. I also find it puzzling that the Administration is 
proposing to shift funding for this program from National Recreation 
and Preservation and into the Historic Preservation Fund. In the West, 
our heritage areas are about far more than historic resources. They are 
about protecting the land, culture, and resources that underpin our way 
of life. Do you agree that heritage areas are about protecting more 
than the historic resources of a place?
    Answer. Yes, we agree that National Heritage Areas are about 
preserving natural, cultural, scenic, and recreational resources as 
well as historic resources.
    Question 3. Why, then, is the funding being shifted to Historic 
Preservation?
    Answer. Funding for National Heritage Areas is being shifted to the 
Historic Preservation Fund as part of the America's Heritage and 
Preservation Partnership Program, which also encompasses two Historic 
Preservation Fund grants programs (Save America's Treasures and 
Preserve America). The combination of these three programs represents a 
more seamless approach to supporting locally focused historic 
preservation and heritage tourism programs that will allow local 
communities to determine which strategies best suit their heritage 
needs; apply to the most appropriate programs to conserve heritage 
resources and promote heritage tourism; and better and more efficiently 
coordinate cultural resource preservation.
    Question 4. Does this shift in funding sources imply that the 
National Park Service is changing the mission of national heritage 
areas so that they focus primarily on historic resources?
    Answer. No, the mission of the Heritage Partnership Programs 
remains the same, to preserve nationally important natural, cultural, 
historic, scenic and recreational resources through locally driven 
partnership efforts.
     Responses of Fran Mainella to Questions From Senator Menendez
    Question 1. Could you explain why the Management Policies needed to 
be rewritten?
    Answer. At an April 25, 2002, hearing called by the House 
Subcommittee on National Parks, Recreation, and Public Lands, 
Congressman Radanovich, who was then chairman of the subcommittee, 
requested that Director Mainella initiate a comprehensive review of the 
2001 edition of Management Policies. Among other things, the chairman 
perceived that the policies did not adequately reflect the Service's 
responsibilities under the 1916 Organic Act to provide for enjoyment of 
the parks. Chairman Radanovich again inquired about a review in a June 
6, 2002, letter to the Director. In a September 24, 2003 letter to 
Chairman Radanovich, the Director stated that the NPS had begun a 
systematic review.
    In response to this continuing congressional interest, and since 
management of the national park system is always a matter of general 
concern to the Department of the Interior, a Departmental goal was 
adopted to ``Improve the NPS Management Policies.'' Deputy Assistant 
Secretary Paul Hoffman, who provides policy guidance to the NPS, was 
tasked with lead responsibility on behalf of the Department. In July 
2005, Mr. Hoffman presented for the NPS's review his initial 
recommendations for updates to the policies. This was an internal 
document intended only to be a starting point for discussion.
    At a December 14, 2005, House Subcommittee hearing on the NPS 
Organic Act, Congressman Pearce, the new chairman of the subcommittee, 
acknowledged the controversy over the Management Policies review. He 
reaffirmed that ``it was this subcommittee in April 2002--not Deputy 
Assistant Secretary Paul Hoffman--that initiated an evaluation of the 
2001 NPS Management Policies . . . .'' Upon receiving Deputy Assistant 
Secretary Hoffman's preliminary rough draft, the Director assigned NPS 
career employees to review and evaluate the suggestions. The 
suggestions were to be considered along with other NPS policy 
initiatives that would improve the 2001 Management Policies. For 
example, the Service already had an acknowledged need to: place more 
emphasis on civic engagement and public involvement; update the 
planning procedures in Chapter 2; correct some aspects of the 
wilderness stewardship procedures in Chapter 6; and discourage 
construction projects that are excessive in size or cost, or too 
expensive to operate. Also, this was an opportunity to also address any 
new laws, executive orders, and regulations that had not already been 
addressed in the 2001 edition.
    Several other factors came into play in seeing this as a positive 
opportunity for the NPS. For example, the update would take into 
account: the NPS's increased responsibilities for protecting our 
borders and icon parks against terrorists; changes in the demographics 
of visitors; rapid population growth around parks; improvements in 
technology that provide new ways to enjoy parks or reduce adverse 
impacts on resources; and a new focus on cooperative conservation.
    Question 2. Could you describe the latest situation with Ellis 
Island, and why it has taken so long to approve a plan for the site?
    Answer. At the urging of Congress, the NPS and the Department over 
that past few years have applied a great deal of oversight to the type 
of partnership projects called for in the Ellis Island plan. This 
review and consultation is necessary to assure that realistic and 
achievable expectations result from NPS planning documents and 
partnership agreements. NPS is making final revisions to the 
Development Concept Plan/Draft Environmental Impact Statement for Ellis 
Island and is preparing to integrate the plan's concepts into the 
Partnership Construction Process.
    Question 3. Under the draft Management Policies, would the Park 
Service allow off-road vehicle use at the Delaware Water Gap National 
Recreation Area? Would it be considered an ``appropriate use?'' What 
guidelines would regulate the use of vehicles around the park? How 
would we measure the impact on the park's guests, the wildlife, and the 
preservation mandate of the NPS? What steps would be taken to maintain 
a balance between off-road vehicle use and other forms of park 
recreation?
    Answer. The draft Management Policies would not change the process 
by which off-road vehicle (ORV) use is determined or regulated at 
Delaware Water Gap National Recreation Area or at any other unit of the 
National Park System. The draft policies are clear that ORV use in 
national park units is governed by the same Executive Orders and 
regulations that govern ORV use currently. The proposed change for the 
section on ORV use in the draft policies is new wording that is simpler 
and less negative in tone. And, the draft policies are subject to 
further change as we go through the revision process.
    ORV use is not allowed at Delaware Water Gap NRA at present. Under 
the draft policies, as under the current Management Policies, a special 
regulation would have to be promulgated for that purpose. Among other 
things, developing a special regulation would require a full 
environmental analysis under the National Environmental Policy Act, 
which would include public review of the process.

                                    

      

</pre></body></html>
